       June 12, 2002




   Financial Management

   Military Traffic Management
   Command Handling of Container
   Detention Charges
   (D-2002-104)




             Office of the Inspector General
                          of the
                 Department of Defense

                                Constitution of the
                              United States of America

No Money shall be drawn from the Treasury, but in Consequence of Appropriations
made by Law; and a regular Statement and Account of the Receipts and Expenditures
of all public Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this audit report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

MTMC                  Military Traffic Management Command
              Office of the Inspector General of the Department of Defense
Report No. D2002-104                                                                         June 12, 2002
      (Project No. D2001LH-0059)

                 Military Traffic Management Command Handling of
                            Container Detention Charges

                                          Executive Summary

Who Should Read This Report and Why? This report should be read by logistics
officials responsible for delivery and receipt of DoD cargo. The report discusses the
offsetting of detention charges incurred for transportation of DoD cargo by commercial
motor carriers.

Background. This report discusses the Military Traffic Management Command
(MTMC) Operations Directorate handling of detention charges that motor carriers
incurred. MTMC uses DoD-owned intermodal containers, as well as those that the
commercial transportation industry furnishes, to deliver equipment and supplies to
America’s warfighters. The MTMC Operations Directorate, located at Fort Eustis,
Virginia, is responsible for synchronizing surface cargo that moves through the Defense
Transportation System and for providing traffic management and strategic port
management to a variety of DoD customers.

Results. The MTMC Operations Directorate did not offset detention charges that
motor carriers incurred in Puerto Rico. As a result, during FY 2001 the MTMC
Operations Directorate paid about $62,929 in detention charges to ocean carriers ∗ for
containers that were not returned within the allotted time and not offset against future
motor carrier billings. If the MTMC Operations Directorate takes action to
retroactively recover FY 2001 detention charges and offset future motor carrier
detention charges, DoD could put about $463,157 in detention charges to better use
over the next 6 years. See Appendix A for details on our review of management
controls.

Management Comments and Audit Response. MTMC concurred with the finding
and recommendations. The MTMC comments were responsive, and the actions meet
the intent of our recommendations and should provide funds that can be put to better
use. MTMC, however, disagreed with our assessment of the potential monetary
benefits. We recognize that future savings are difficult to estimate, therefore, as part of
the followup process, we request that MTMC track and report actual detention offsets
from FY 2001 through FY 2007. See the Finding section of this report for additional
discussion of management comments, and the Management Comments section for the
complete text of the comments.

∗
    Carriers are any individual, freight forwarder, corporation, or public utility engaged in the business of
    transporting goods by air, rail, road, sea, or a combination of such modes.
Table of Contents

Executive Summary                                  i

Introduction
     Background                                    1
     Objectives                                    2

Finding
     Offsetting Motor Carrier Detention Charges    3

Appendixes
     A. Audit Process                              7
          Scope and Methodology                    7
          Management Control Program Review        7
          Prior Coverage                           8
     B. Report Distribution                        9

Management Comments
     Military Traffic Management Command          11
Background
            This audit discusses the Military Traffic Management Command (MTMC)
            Operations Directorate (formerly the MTMC-Deployment Support Command)
            handling of detention charges motor carriers1 incurred in Puerto Rico. If
            containers are not returned to the owner within an allotted time, detention
            charges are incurred.

            Containers. Containers have been the predominant mode for international
            surface shipments since the early 1960s. DoD has been a leader in the use of
            containers for moving international freight in support of U.S. forces. DoD
            policy directs that U.S. forces rely on container resources and services furnished
            by the commercial transportation industry, insofar as such support is responsive
            to military requirements and is cost effective in the overall transportation
            system. When available, feasible, economical, and operationally acceptable,
            containers are the preferred DoD mode of transportation. The primary
            objective for using containers is to provide a full container load for each single
            consignee2 or for multiple consignees located on the same base. A container
            that is shipped directly to a consignee not only minimizes loss, damage, and
            pilferage to the cargo and reduces in-transit times, but improves the visibility
            and accountability of cargo in the Defense Transportation System.

            The DoD Intermodal Container System includes DoD-owned, DoD-leased, and
            DoD-controlled 20-foot or 40-foot intermodal containers. The system also
            includes supporting equipment such as generator sets and chassis, container
            handling equipment, information systems, and other infrastructure that supports
            DoD transportation and logistics operations, including commercially provided
            transportation services.

            MTMC Responsibilities. On a worldwide basis, MTMC provides intermodal
            equipment traffic management services to Defense Transportation System
            customers. MTMC is also the single DoD agent for leasing commercial
            intermodal surface containers that support DoD. MTMC is responsible for
            contracting carrier services for delivery of surface container and breakbulk
            cargo from U.S. ports of origin to ports of destination. The MTMC Operations
            Directorate, located at Fort Eustis, Virginia, manages the movement of DoD
            cargo and the operation of ports located in the United States and Latin America.
            In support of the management function, the MTMC Operations Directorate pays
            ocean carriers for container detention charges that are incurred on behalf of
            consignees and motor carriers. The 832nd Transportation Battalion is the port
            manager for DoD-owned and DoD-leased containers that arrive in Puerto Rico.
            The 832nd Transportation Battalion coordinates receipt and staging of DoD
            cargo that arrives by surface transportation at the ocean terminal and releases



1
    For purposes of this report, carriers are any individual, freight forwarder, corporation, or public utility
    engaged in the business of transporting goods by air, rail, road, sea, or a combination of such modes.
2
    A consignee is the receiving activity for a designated shipment.

                                                         1
     containers for delivery to consignees. The DoD containers usually arrive in
     Puerto Rico through the Port of San Juan and are staged at the container yard of
     a respective ocean carrier.

     Regional Domestic Contract. The majority of containerized military cargo
     shipped to Puerto Rico moves under the provisions of a MTMC Regional
     Domestic Contract. The contract establishes rates, terms, and conditions for
     services that are provided for intermodal movements and other special contract
     provisions such as allowable time for the use of carrier equipment (such as
     container or chassis) and detention rates charged if allowable time is exceeded.

             Detention Charges. Detention charges are paid to an ocean carrier
     when a carrier’s container is returned on a date that is beyond the allowable
     time. The Regional Domestic Contract establishes the allowable time for each
     container as 10 calendar days for dry cargo and 5 calendar days for refrigerated
     cargo. Allowable time begins after the container is discharged from the vessel,
     is cleared by applicable agencies of the local government, and is ready for
     delivery to the consignee. Allowable time ceases when the container is returned
     to the ocean carrier. When return of a container to the ocean carrier is delayed
     by the Government or a motor carrier beyond the allowable time, the ocean
     carrier may assess detention charges.

     Puerto Rico Motor Contract. MTMC has a motor freight transportation
     service contract for delivery of DoD cargo in Puerto Rico with four motor
     carriers. At the ocean terminal, the 832nd Transportation Battalion coordinates
     cargo delivery with motor carriers. The motor carriers arrive at the ocean
     terminal for the onloading and delivery of containers to consignees as designated
     in the DD Form 1384-2, “Transportation Control Movement Document.”

Objectives
     The overall audit objective was to evaluate whether DoD effectively and
     efficiently managed the intermodal container system. In May 2001, however,
     MTMC made the decision to contract its container management and leasing
     operations to the commercial transportation industry. Therefore, we limited the
     scope of the audit to assessing the offsetting of detention charges paid to ocean
     carriers that motor carriers incurred in Puerto Rico. We reviewed management
     controls related to that objective. See Appendix A for a discussion of the audit
     scope and methodology, review of the management control program, and prior
     coverage.




                                         2
           Offsetting Motor Carrier
           Detention Charges
           The MTMC Operations Directorate did not offset detention charges that
           motor carriers incurred in Puerto Rico. That condition occurred because
           the MTMC Operations Directorate did not have procedures that would
           ensure motor carrier detention charges DoD paid to ocean carriers were
           offset against future billings owed to the motor carriers. As a result,
           during FY 2001 the MTMC Operations Directorate paid about
           $62,929 in detention charges for containers that were not returned within
           the allotted time and not offset against future motor carrier billings. If
           the MTMC Operations Directorate takes action to retroactively recover
           FY 2001 detention charges and offset future motor carrier detention
           charges, DoD could put about $463,157 in detention charges to better
           use over the next 6 years.

Requirements
    Processing Detention Charges and Motor Carrier Billings. Ocean carriers
    submit invoices containing detention charges to the 832nd Transportation
    Battalion. Contracting and traffic management officials at the
    832nd Transportation Battalion process the invoices, which include an allocation
    of detention charges by consignee and motor carrier. When complete, the
    invoices, along with a memorandum that specifies detention days and charges
    and applicable motor carriers, are certified and forwarded to the MTMC
    Operations Directorate for payment. Based on the documentation, the MTMC
    Operations Directorate pays the ocean carrier. Billings from motor carriers are
    submitted to the 832nd Transportation Battalion. Traffic management officials
    of the 832nd Transportation Battalion process and forward the billings to the
    MTMC Operations Directorate for payment. The MTMC Operations
    Directorate then pays the motor carriers.

    Contract Requirements. According to the motor freight transportation service
    contract, the Government has the right to offset ocean carrier detention charges
    against funds that the Government owes to the motor freight transportation
    carrier. The contract states:
           In the event that the Government incurs detention charges under its
           contract with an ocean carrier for the ocean transportation of cargo to
           and from Puerto Rico as a result of non-performance or breach of the
           required delivery time by the Contractor under this contract, the
           Contractor shall be liable to the Government for the actual detention
           charges assessed by the ocean carrier which are directly attributable to
           the Contractor. The Government shall have the right to offset these
           detention monies owed by the Contractor to the Government against
           freight monies owed to the Contractor by the Government under one
           Transportation Control Movement Document or any other
           Transportation Control Movement Document order of services under
           this or any other Government contract.

                                              3
Detention Charges
    Motor Carrier Detention Charges. The MTMC Operations Directorate did
    not offset detention charges that motor carriers incurred in Puerto Rico. The
    motor carriers were contracted to deliver containerized DoD cargo from the
    ocean carrier’s terminal to the consignee as well as return the empty containers
    to the ocean carrier’s terminal. When a motor carrier notifies the
    832nd Transportation Battalion that it accepts an order to pickup and deliver a
    container, the motor carrier must proceed within 8 working hours for pickup
    and delivery. The motor carrier must make final delivery of the container
    before the close of business at the receiving activity or the receiving ocean
    carrier’s port terminal. However, the motor carrier did not always deliver the
    container to the consignee or return the container to the ocean carrier’s terminal
    within the allotted time. For containers not returned within the allotted time,
    the ocean carriers submitted their billings, including detention charges, to the
    832nd Transportation Battalion. After Battalion certification, the MTMC
    Operations Directorate paid the ocean carriers. The MTMC Operations
    Directorate did not offset those detention charges against motor carrier future
    billings.

    We reviewed all of the 192 detention charge invoices, which included
    319 detention charges, that the MTMC Operations Directorate paid during
    FY 2001 on behalf of motor carriers to ocean carriers. We also reviewed
    memorandums associated with allocation of charges that the
    832nd Transportation Battalion prepared during FY 2001. The documentation
    showed that the 832nd Transportation Battalion accumulated about $62,929 in
    detention charges attributed to the four motor carriers contracted to deliver
    containerized DoD cargo in Puerto Rico. The documentation also showed that
    the motor carriers held the containers an average of about 6 days per charge
    beyond the allotted time. Of the 319 detention charges, 244 (77 percent) were
    for containers in which the deliveries were 1 to 5 days beyond the allotted time.

Procedures to Offset Detention Charges
    The MTMC Operations Directorate did not have procedures that ensured motor
    carrier detention charges DoD paid to ocean carriers were offset against future
    billings owed to the motor carriers. According to MTMC Operations
    Directorate personnel, they were not aware that the motor carrier detention
    charges were not being offset against debts owed to the motor carriers. The
    MTMC Operations Directorate personnel relied on the 832nd Transportation
    Battalion to perform the procedure. Officials at the 832nd Transportation
    Battalion stated that they thought the MTMC Operations Directorate was
    offsetting the detention charges against motor carriers. Procedures are needed
    that ensures coordination for offsetting motor carriers detention charges paid to
    ocean carriers takes place between the 832nd Transportation Battalion and the
    MTMC Operations Directorate.




                                         4
Impact of Detention Charges
    As a result of the MTMC Operations Directorate not offsetting detention
    charges that motor carriers incurred, DoD paid ocean carriers during FY 2001
    about $62,929 that was not recovered for containers not returned within the
    allotted time. We believe that if the MTMC Operations Directorate takes action
    to retroactively recover the detention charges incurred for FY 2001 and
    FY 2002 and offset future motor carrier detention charges, DoD could put about
    $463,157 to better use over the next 6 years.

    We calculated the $463,157 using inflation indexes in the National Defense
    Budget Estimates for FY 2001 through FY 2007. The table below shows the
    estimated savings to DoD if the MTMC Operations Directorate were to offset
    detention charges paid to ocean carriers incurred by motor carriers.


            Funds Put to Better Use From Offsetting Detention Charges
            Against Motor Carrier Billings (FY 2001 through FY 2007)

               Fiscal     Inflation       FY 2001           Funds Put
               Year        Index      Detention Charges    To Better Use

                2001        1.00          $62,929            $ 62,929
                2002        1.01           62,929              63,558
                2003        1.03           62,929              64,817
                2004        1.05           62,929              66,075
                2005        1.07           62,929              67,334
                2006        1.09           62,929              68,593
                2007        1.11           62,929              69,851
                 Total                                      $463,157



Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, Military Traffic Management
    Command:

          1. Establish procedures that ensure motor carrier detention charges
    DoD paid to the ocean carriers are offset against future billings owed to the
    motor carriers.

           2. Require the Military Traffic Management Command Operations
    Directorate and the 832nd Transportation Battalion to retroactively offset
    the FY 2001 and FY 2002 detention charges that were paid to ocean carriers
    against future billings owed to motor carriers.

                                      5
Management Comments. MTMC concurred with Recommendations 1. and 2.,
stating further work that validates both an exact amount and assignment of the
detention charges is needed. MTMC also stated that recovery of detention
charges from the responsible motor carriers is needed. That process would
include ensuring procedures for offsetting any additional motor carrier detention
charges are in place. MTMC disagreed with our potential monetary savings,
stating that the Command was aware of problems with motor carrier-related
detention charges in Puerto Rico prior to our audit work. MTMC further stated
that a new motor carrier contract effective April 2001, designed to improve
delivery and pickup services had been put in place. The new contract would
thereby eliminate detention charges and the need to take offset actions. Because
the contract terminates March 31, 2004, the auditor’s projected savings should
end at this date.

Audit Response. MTMC comments were responsive to the intent of the
recommendations. We agree with the MTMC action to improve delivery and
pickup services through a new motor carrier contract. We believe the action
will reduce detention charges but do not agree they will be eliminated. The
MTMC agreement to establish procedures that ensure motor carrier detention
charges paid to ocean carriers are offset against future billings owed to the
motor carriers, should provide funds in current and future years that can be put
to better use. We recognize that future savings are difficult to estimate,
therefore, as part of the followup process, we request that MTMC track and
report actual detention offsets from FY 2001 through FY 2007.




                                    6
Appendix A. Audit Process

Scope and Methodology
    Work Performed. The initial scope included a review of MTMC container
    management operations. However, as a result of the MTMC decision to
    contract its container management and leasing operations to the commercial
    transportation industry, we limited the scope of our audit to assessing the
    offsetting of detention charges paid to ocean carriers that were incurred by
    motor carriers in Puerto Rico. We reviewed the DoD and MTMC regulations
    concerning policies, responsibilities, and procedures for container management
    operations. For FY 2001, we reviewed 192 detention charge invoices that
    contained 319 detention charges attributable to motor carriers that the ocean
    carriers submitted as well as related certification the 832nd Transportation
    Battalion prepared. We performed audit work at MTMC and the MTMC
    Operations Directorate. We reviewed contracts for delivery of cargo to the port
    of debarkation in Puerto Rico and from the port of debarkation to consignees.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the Defense Financial
    Management high-risk area.

    Use of Computer-Processed Data. We relied on computer-processed data
    from the MTMC PAYS system to identify the detention charges paid to ocean
    carriers. We assessed reliability of the data by matching the data to the
    supporting documentation and found them to be adequate. As a result, the
    computer-processed data were determined to be reliable.

    Audit Dates, and Standards. We performed this audit from May 2001 through
    February 2002 in accordance with generally accepted government auditing
    standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of Management Controls. We reviewed the adequacy of
    management controls for offsetting detention charges against motor carriers.



                                       7
      Adequacy of Management Controls. We identified a material management
      control weakness of MTMC not offsetting detention charges incurred by motor
      carriers as defined by DoD Instruction 5010.40. The MTMC management
      controls for not offsetting detention charges paid to ocean carriers incurred by
      motor carriers were not adequate because the MTMC Operations Directorate did
      not have procedures in place to coordinate the offsetting detention charges with
      the 832nd Transportation Battalion. The recommendation, if implemented, will
      correct that material weakness. Also, if management implements the
      recommendation, the DoD could put recouped detention charges to better use
      over the next 6 years. A copy of the report will be provided to senior officials
      responsible for management controls within the Army.

Prior Coverage
      During the last 5 years, the Inspector General of the Department of Defense has
      issued four reports that discuss delivery of cargo and intermodal shipping
      containers. Unrestricted Inspector General of the Department of Defense
      reports can be accessed over the Internet at
      http://www.dodig.osd.mil/audits/reports.

Inspector General of the Department of Defense (IG DoD)

      IG DoD Report No. D-2002-079, “Delivery and Receipt of DoD Cargo Inbound
      to the Republic of Korea,” April 5, 2002

      IG DoD Report No. D-2002-004, “Import Processing of DoD Cargo Arriving
      in the Republic of Korea,” October 4, 2001

      IG DoD, Report No. D-2001-149, “Coordinating and Tracking of Commercial
      Containers in Korea,” June 22, 2001

      IG DoD, Report No. 99-195, “Contract Actions for Leased Equipment,”
      June 30, 1999




                                         8
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Acquisition Reform)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander, U.S. Transportation Command
  Commander, Military Traffic Management Command


Non-Defense Federal Organization and Individuals
Office of Management and Budget




                                          9
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         10
Military Traffic Management Command
Comments




                    11
12
Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed to
this report are listed below.

Shelton R. Young
Dennis E. Payne
Albert L. Putnam
Keith A. Yancey
Melinda M. Oleska
Michelle S. Emigh
Major Harry B. Kellam
Sharon L. Carvalho
